Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 SEPARATE STATE CHILDREN’S 

 HEALTH INSURANCE PROGRAM

 ENROLLEES’ ELIGIBILITY FOR

     MEDICAID IN 2006 





                    Daniel R. Levinson

                     Inspector General 


                       July 2008

                     OEI-06-07-00310

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
  Δ         E X E C U T I V E                                S U M M A R Y



                    OBJECTIVE
                    To determine the extent to which children enrolled in separate State
                    Children’s Health Insurance Programs (SCHIP) were eligible for
                    Medicaid in 2006.


                    BACKGROUND
                    The Balanced Budget Refinement Act of 1999 requires that, every
                    3 years, the Office of Inspector General (OIG) review a sample from
                    States with separate SCHIPs to: (1) determine the number, if any, of
                    SCHIP enrollees who are eligible for the Medicaid program; and
                    (2) assess States’ progress in reducing the number of uninsured
                    low-income children. This study addresses the first mandate.

                    The Balanced Budget Act of 1997 created SCHIP to provide health
                    insurance coverage to uninsured low-income children. The Federal
                    match for SCHIP expenditures is greater than the Federal match for
                    Medicaid expenditures. Federal regulations require States to screen
                    SCHIP applicants for Medicaid eligibility, in part, to prevent States
                    from inappropriately enrolling Medicaid-eligible children in SCHIP.

                    To determine the extent to which children enrolled in separate SCHIPs
                    were eligible for Medicaid, we examined case records of a random
                    sample of 400 children enrolled in separate SCHIPs on June 1, 2006,
                    from 36 States with separate SCHIPs. We reviewed case records for
                    each child based on the eligibility criteria and requirements for that
                    State’s Medicaid program.


                    FINDING
                    An estimated 4 percent of children enrolled in separate SCHIPs were
                    eligible for the Medicaid program in 2006. We determined that
                    4 percent of children enrolled in separate SCHIPs (16 sample cases)
                    were eligible for their States’ Medicaid program. Eight of these cases
                    involved miscalculations of income, and the remainder involved clerical
                    mistakes and unclassified errors. Projected to the population of all
                    children enrolled in separate SCHIPs in 2006, the 4-percent error rate
                    corresponds to about 105,000 children nationally. An additional
                    4.5 percent (18 cases) lacked sufficient documentation for us to make a
                    determination regarding Medicaid eligibility. This lack of
                    documentation leaves open the possibility that the actual number of

OEI-06-07-00310     S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   i
    E X E C U T I V E                    S U           M M A R Y



                  children enrolled in separate SCHIPs who were eligible for the Medicaid
                  program in 2006 could have been higher than our projection.


                  RECOMMENDATION
                  We found that an estimated 4 percent of children enrolled in separate
                  SCHIPs were eligible for the Medicaid program in 2006 and an
                  additional 4.5 percent of cases lacked sufficient documentation.
                  Enrollment errors can result in the inappropriate use of Federal
                  matching funds and limited SCHIP resources being expended on
                  Medicaid-eligible children.
                  To address these deficiencies, we recommend that the Centers for
                  Medicare & Medicaid Services (CMS):
                  Take further action to ensure the appropriate enrollment of
                  Medicaid-eligible children.
                  •	 To address miscalculations of incomes and clerical mistakes, CMS
                     could emphasize to States the need for accuracy in enrollment
                     casework and encourage States to perform quality checks to detect
                     such errors.

                  •	 CMS could also use the eligibility measurement component of
                     Payment Error Rate Measurement, which examines eligibility for
                     both SCHIP and Medicaid enrollment, to identify problems that
                     lead to enrollment errors and to assist States in implementing
                     corrective actions.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its written comments on the draft report, CMS stated that it
                  “supports the spirit of the OIG recommendations” and “will continue to
                  undertake a number of activities to prevent the types of errors
                  identified” in the report. To help it enhance monitoring of States in this
                  area, CMS requested additional information on some of the 16 cases
                  identified as having enrollment errors. OIG will provide CMS with
                  detailed information about each of the 16 cases with enrollment errors.
                  To address CMS’s additional comments, we made revisions or added
                  information in the appropriate sections of the report to clarify each topic
                  or question.



OEI-06-07-00310   S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   ii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDING................................................... 9

                   An estimated 4 percent of SCHIP enrollees were eligible for 

                   Medicaid in 2006 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   Agency Comments and Office of Inspector General Response . . . 12 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   A: States’ Separate SCHIP Enrollment. . . . . . . . . . . . . . . . . . . . . 14 


                   B: Estimates, Projections, and Confidence Intervals . . . . . . . . . . 15 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

    D   E S I G N     ~           D R            A F T
  Δ         I N T R O D U C T I O N


                    OBJECTIVE
                    To determine the extent to which children enrolled in separate State
                    Children’s Health Insurance Programs (SCHIP) were eligible for
                    Medicaid in 2006.


                    BACKGROUND
                    Section 703 of the Medicare, Medicaid, and SCHIP Balanced Budget
                    Refinement Act (BBRA) of 1999 requires that, every 3 years, the Office
                    of Inspector General (OIG) review a sample from States with separate
                    SCHIPs to: (1) determine the number, if any, of SCHIP enrollees who
                    are eligible for the Medicaid program; and (2) assess States’ progress in
                    reducing the number of uninsured low-income children.1 This study
                    addresses the first mandate. OIG addressed the second mandate in a
                    separate study.2
                    State Children’s Health Insurance Program
                    The Balanced Budget Act of 1997 created SCHIP to provide health
                    insurance coverage to uninsured low-income children.3 The program’s
                    overall goal is to expand coverage to uninsured children in households
                    with incomes greater than States’ Medicaid eligibility but below
                    200 percent of the Federal poverty level.4 States have the option of
                    (1) instituting a separate children’s health insurance program;
                    (2) expanding Medicaid eligibility; or (3) instituting both a separate
                    SCHIP and a Medicaid expansion, known as a combination program.5
                    As of January 1, 2006, 18 States administered only a separate SCHIP,
                    and 21 States administered both a separate SCHIP and a Medicaid
                    expansion SCHIP. Three of these thirty-nine separate SCHIPs cover
                    only unborn children for health benefits coverage, including prenatal
                    care and delivery.6 Ten of the remaining eleven States and the District
                    of Columbia had only Medicaid expansion programs, and one State did




                          1 P.L. No. 106-113; Social Security Act, § 2108(d)(1), 42 U.S.C. § 1397hh (d)(1).
                          2 OIG, “Assessing States’ Progress in Meeting State Children’s Health Insurance
                    Program Goals” (OEI-05-07-00330), September 2007.
                          3 P.L. No 105-33; Social Security Act §§ 2101–2110, 42 U.S.C. §§ 1397aa–jj.
                          4 42 U.S.C. §§ 1397aa and 1397jj(b).
                          5 42 U.S.C. § 1397aa(a), 42 CFR § 457.70(a).
                          6 42 CFR § 457.10.




OEI-06-07-00310     S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   1
    I N T R O D   U C T              I O N

                   not have any SCHIP. At the end of fiscal year (FY) 2006, separate
                   SCHIPs had almost 3 million enrollees.7
                   The Federal match for SCHIP expenditures is greater than the Federal
                   match for Medicaid expenditures.8 For FY 2006, the average Federal
                   match for Medicaid was 60 percent, and the average for SCHIP was
                   72 percent.9
                   Screening Applicants for Medicaid Eligibility
                   Federal regulations require States to screen SCHIP applicants for
                   Medicaid eligibility to prevent States from enrolling Medicaid-eligible
                   children in SCHIP.10 Appropriate enrollment of Medicaid-eligible
                   children is important to ensure that limited SCHIP enrollment slots are
                   not taken by children who should be enrolled in Medicaid and that the
                   enhanced Federal matching funds are used as intended.

                   Based on a variety of factors, such as family income and the child’s age,
                   a child may be eligible for Medicaid or SCHIP, but never both. States
                   must screen each SCHIP applicant’s income to identify whether the
                   applicant is potentially eligible for the State’s Medicaid program.11 If a
                   child is found to be potentially eligible, a full Medicaid eligibility
                   determination must ensue. Within limits set by Federal law, Medicaid
                   eligibility criteria vary somewhat among States.12
                   Federal regulations permit States’ discretion to allow families to
                   self-declare eligibility factors, such as income, in lieu of providing
                   documentation, so long as the State implements controls and procedures
                   “to ensure the integrity of the eligibility determination process.”13




                       7 Centers for Medicare & Medicaid Services (CMS), “2006 Fourth Quarter – Program
                   Enrollment Last Day of Quarter by State.” Available online at
                   http://www.cms.hhs.gov/NationalSCHIPPolicy/SCHIPER. Accessed on October 5, 2007.
                       8 Social Security Act § 2105(a) 42 U.S.C. § 1397ee(a). 

                       9 OIG calculation based on information provided in 69 Fed. Reg. 68380 (Nov. 24, 2004). 

                       10 42 CFR § 457.350. 

                     11 States that have resource (asset) tests must also screen for a family’s resources.

                   42 CFR § 457.350(d).
                      12 42 U.S.C. §§ 1396a(l)(2)(b) and (c). Federal Medicaid funds will match State funds for
                   children under the age of 6 whose family income is under 133 percent of the Federal poverty
                   level and for children ages 6 through 18 at 100 percent of the Federal poverty level.
                       13 42 CFR §§ 457.380(a) and (b).




OEI-06-07-00310    S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   2
    I N T R O D   U C T              I O N

                   In 2006, 9 of the 39 States with separate SCHIPs allowed some form of
                   self-declaration of income.14
                   SCHIP agencies must facilitate timely enrollment into the Medicaid
                   program of those children found eligible for Medicaid.15 To accomplish
                   timely enrollment, section 2102(c)(2) of the Social Security Act requires
                   coordination between the State Medicaid and separate SCHIP agencies.
                   Further, Federal regulations require Medicaid agencies to determine
                   eligibility within 45 days for most applicants, barring extenuating
                   circumstances.16 Finally, SCHIP agencies must monitor their screening
                   and enrollment processes to ensure that children are enrolled in the
                   right program.17
                   Payment Error Rate Measurement
                   CMS has recently implemented the Payment Error Rate Measurement
                   (PERM) program, which is designed, in part, to detect any inappropriate
                   enrollment in State Medicaid programs and SCHIPs.18 Specifically,
                   starting in FY 2006 for Medicaid and FY 2007 for SCHIP, the eligibility
                   measurement component of PERM determines whether randomly
                   selected beneficiaries enrolled in Medicaid and SCHIP were eligible for
                   the program in which they are enrolled. The PERM is administered
                   annually in 17 States, such that error rates are measured in each State
                   every 3 years. States selected for review are required to provide CMS
                   with, among other things, a corrective action report for purposes of
                   reducing any payment error rates measured by the eligibility
                   component of the program.
                   Prior State Children’s Health Insurance Program Enrollment Reviews
                   OIG has issued two previous reports based on the reviews mandated
                   under the BBRA regarding SCHIP enrollees who are eligible for




                     14 Kaiser Commission on Medicaid and the Uninsured, “Resuming the Path to Health
                   Coverage for Children and Parents: A 50-State Update on Eligibility Rules, Enrollment and
                   Renewal Procedures, and Cost-Sharing Practices in Medicaid and SCHIP in 2006,” Table 6,
                   January 2007. Data based on a national survey conducted by the Center on Budget and
                   Policy Priorities for January 2007. Available online at
                   http://www.kff.org/medicaid/upload/7608.pdf. Accessed on October 5, 2007.
                       15 42 CFR §§ 457.350(c), (d), and (f)(4). 

                       16 42 CFR § 435.911(a)(2). 

                       17 42 CFR § 457.353. 

                       18 71 Fed. Reg. 50489 (Aug. 31, 2007). 





OEI-06-07-00310    S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   3
    I N T R O D   U C T              I O N

                   Medicaid.19 For 2000, OIG found that 1.8 percent of SCHIP enrollees
                   were eligible for Medicaid from a sample of 500 children from
                   five selected States with separate SCHIPs. For 2003, OIG found that
                   1 percent of SCHIP enrollees were eligible for Medicaid from a sample of
                   400 children from 36 States with separate SCHIPs.

                   The BBRA also requires the Government Accountability Office (GAO) to
                   monitor OIG reviews of SCHIP.20 Regarding OIG’s review of 2000
                   SCHIP enrollment, GAO recommended that OIG (1) expand the scope of
                   reviews to include all States with separate SCHIPs, including those
                   with combination programs; and (2) consider exploring issues of
                   appropriate SCHIP enrollment among States that have opted for
                   Medicaid expansions under SCHIP.21 OIG agreed with the
                   recommendations and expanded its 2003 review and the current review
                   to include all States that administer separate SCHIP programs,
                   including those with combination programs. The 2003 OIG review also
                   examined the eligibility of children enrolled in Medicaid expansion
                   SCHIPs.22 GAO made no recommendations regarding OIG’s 2003
                   review.23
                   Beyond the mandated national studies, OIG also conducted
                   State-specific reviews of SCHIP eligibility in California, Florida, and
                   New York using payment and enrollment data from 2005.24 Among the
                   three States, error rates, i.e., cases in which SCHIP enrollees were
                   eligible for the State’s Medicaid program, ranged from a low of 0 percent
                   (no errors) to a high of 5.5 percent. The percentage of cases that lacked
                   sufficient case file documentation to support the State’s eligibility
                   determination ranged from a low of 6.3 percent to a high of 11 percent.
                   OIG made recommendations for improvement to each State. These

                     19 OIG, “State Children’s Health Insurance Program: Ensuring Medicaid Eligibles Are
                   Not Enrolled in SCHIP” (OEI-05-00-00241), February 2001; and “Determining if Children
                   Enrolled in Separate SCHIPs Were Eligible for Medicaid” (OEI-07-03-00220), June 2005.
                       20 42 U.S.C. § 1397hh(d)(3).
                       21 GAO, “Children’s Health Insurance: Inspector General Reviews Should Be Expanded
                   To Further Inform the Congress” (GAO-02-512), March 29, 2002.
                     22 OIG, “Determining if Children Classified as Medicaid SCHIP Expansion Meet
                   Eligibility Criteria” (OEI-07-03-00221), October 2005.
                     23 GAO, “Children’s Health Insurance: Recent HHS-OIG Reviews Inform the Congress
                   on Improper Enrollment and Reductions in Low-Income, Uninsured Children”
                   (GAO-06-457R), March 9, 2006.
                       24 OIG, “Review of State Children’s Health Insurance Program Eligibility in California”
                   (A-09-06-00022), July 2007; “Review of State Children’s Health Insurance Program
                   Eligibility in Florida” (A-04-06-00021), July 2007; and “Review of State Children’s Health
                   Insurance Program Eligibility in New York State” (A-02-06-01003), July 2007.



OEI-06-07-00310    S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   4
    I N T R O D   U C T              I O N

                   studies provide examples of State-specific enrollment error rates
                   identified in recent years.




                   METHODOLOGY
                   Scope
                   To determine the extent to which children enrolled in separate SCHIPs
                   were eligible for Medicaid, we included in our sample 36 of the 39 States
                   with a separate SCHIP program as of January 1, 2006. We did not
                   include the three States in which the separate SCHIP program covers
                   only unborn children.25 We examined the SCHIP case file documents of
                   400 randomly selected children, 18 years of age or younger, who were
                   enrolled in separate SCHIPs on June 1, 2006. Using each State’s
                   Medicaid eligibility criteria, we determined whether the selected child
                   was eligible for the State’s Medicaid program.26 We did not assess
                   whether the enrollees met their States’ SCHIP eligibility criteria.
                   Sample Selection
                   From each of the 36 States, we obtained a list of all children enrolled in
                   their separate SCHIPs on June 1, 2006. Selecting a single date within
                   the year helped avoid complications regarding children who might have
                   moved between the SCHIP and Medicaid programs during the year. We
                   chose June 1 to be consistent with the methodology of the 2003 review.

                   We combined the State lists into a single universe of approximately
                   2.6 million children. From this universe, we selected a simple random
                   sample of 400 cases for review—the same sample size as OIG’s 2003
                   review. The sample included at least one case from each of 31 States
                   with separate SCHIPs and, because of random selection, did not include
                   cases from 5 States with separate SCHIPs: Idaho, Maine, North
                   Dakota, South Dakota, and Vermont. See Appendix A for a list of each
                   State’s separate SCHIP enrollment and the number of cases selected for
                   review.




                     25 Arkansas, Minnesota, and Rhode Island reported that their separate SCHIPs cover
                   only unborn children.
                     26 Not included in this study are children enrolled in SCHIP Medicaid Expansion
                   programs.



OEI-06-07-00310    S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   5
    I N T R O D 
U C T              I O N

                  Case File Documentation
                  We requested case file documentation from SCHIP agencies for the
                  400 sample cases. For each case, we requested copies of case file
                  documents that the State used for its most recent SCHIP eligibility
                  determination decision prior to June 1, 2006. Typical case file
                  documentation included applications for enrollment or reenrollment in
                  SCHIP, worksheets used by caseworkers to determine eligibility,
                  printouts from automated eligibility systems, and copies of paychecks or
                  tax returns to support the family’s income information. We received
                  initial responses from SCHIP agencies for each of the 400 cases but, as
                  discussed below, additional documentation was needed for some cases.
                  State Medicaid Eligibility Criteria
                  From each State with sample cases, we obtained information about the
                  State’s eligibility criteria and requirements applicable at the time of the
                  child’s last SCHIP determination prior to June 1, 2006.27 These criteria
                  and requirements included, but were not limited to, age limitations,
                  income limits based on Federal poverty limits, rules regarding what
                  income should be counted, income disregards or deductions, asset or
                  resource limits, definitions of family size, and any automatic qualifiers.
                  We also downloaded information from State Medicaid and SCHIP
                  Web sites and consulted with SCHIP officials and other State personnel
                  (hereinafter referred to as State officials) for clarification as needed.
                  Case Reviews and Analysis
                  We reviewed case file documentation for each child based on eligibility
                  criteria for the State’s Medicaid program. We analyzed the following
                  elements of each case in accordance with each State’s criteria for
                  Medicaid eligibility:

                  •       date of application or redetermination;

                  •       age of the child at the time of the SCHIP eligibility determination;

                  •       household or family composition;




                     27 Any questions regarding the timing of applicable criteria affecting specific cases were
                  discussed with States in follow-up contacts.



OEI-06-07-00310   S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   6
    I N T R O D   U C T              I O N

                   •	      percentage of Federal poverty limit allowed by the State according
                           to the age of the child;28
                   •	      family income;

                   •	      family resources and asset limits (if applicable);

                   •	      presence of automatic qualifiers (as applicable by State, including
                           Supplemental Security Income, children in foster care, adoption,
                           and participation in the Temporary Assistance for Needy Families
                           program); and

                   •	      documentation used to support family income, such as pay stubs
                           and income tax returns.

                   More specifically, to determine whether a child’s family income qualified
                   the child for his or her State’s Medicaid program, we:

                   •	      calculated the family’s gross monthly income (earned and
                           unearned) using supplied income documentation;

                   •	      subtracted any applicable income disregards or deductions
                           allowed by the State’s Medicaid criteria, e.g., child care expenses;
                           and

                   •	      compared the calculated net income to the State’s Medicaid
                           income limit applicable for the age of the child and size of the
                           family.

                   For cases lacking any documentation listed above, we recontacted State
                   officials to obtain the missing documentation. For those States that
                   allow SCHIP applicants to self-declare income, we calculated net income
                   using the amount self-reported on the application. If the self-reported
                   income differed from the income used in the State’s calculations, we
                   contacted the State for further clarification. We also discussed with
                   State officials any apparently conflicting information found in the
                   provided documents (e.g., inconsistent income amounts or family size) to



                      28 70 Fed. Reg. 8373–8375 (Feb. 18, 2005) for 2005; 71 Fed. Reg. 3848–3849
                   (Jan. 24, 2006) for 2006. OIG used the Federal poverty limit guidelines in effect for the
                   State-reported date of determination. Annual poverty-level guidelines for 2006 were
                   effective on January 24, 2006. Therefore, in reviewing case files with determinations dated
                   prior to January 24, 2006, we used 2005 Federal poverty limit guidelines. For applications
                   dated on or after January 24, 2006, we used 2006 Federal poverty limit guidelines. Any
                   questions regarding the applicable Federal poverty level for specific cases were discussed
                   with States; however, this issue did not affect any of the eligibility errors identified in this
                   report.



OEI-06-07-00310    S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   7
    I N T R O D 
U C T              I O N

                  ensure that we were using the most appropriate information for our 

                  determinations. 


                  Enrollment errors. When our case reviews determined that an enrollee
                  did not qualify for his or her State’s Medicaid program, no further
                  review was conducted for that case. For any child whom we identified
                  as potentially eligible for the Medicaid program, we contacted State
                  officials to determine whether they agreed. If State officials did not
                  dispute our preliminary results, we determined that the child was
                  eligible for Medicaid. (Hereinafter, we refer to these situations as
                  “enrollment errors.”)

                  If State officials disputed our preliminary results, we asked them to
                  provide additional information or documentation to demonstrate that
                  the child was not eligible for Medicaid. We rereviewed these cases using
                  the additional information and documentation and, as necessary,
                  followed up with State officials until we could make a final
                  determination regarding whether the case represented an enrollment
                  error. For cases that had been referred by the SCHIP agency to the
                  Medicaid agency for a full Medicaid eligibility determination, we
                  examined the elapsed time after the date of the referral. We considered
                  children in these cases to be potentially eligible for Medicaid if the
                  SCHIP agency had referred the case to the State Medicaid agency at
                  least 45 days prior to June 1, 2006.
                  Unable to determine. We refer to cases as “Unable to determine” if the
                  State did not, after multiple requests, provide sufficient documentation
                  for us to determine whether a child was Medicaid eligible.

                  Error rates and projections. We calculated the percentage of SCHIP
                  enrollees who were eligible for the Medicaid program in 2006 and the
                  percentage of cases for which we were unable to determine Medicaid
                  eligibility. We projected the results to the universe of about 2.6 million
                  children enrolled in separate SCHIPs in 36 States in 2006. Confidence
                  intervals for estimates and projections contained in this report are
                  listed in Appendix B.
                  Standards
                  This study was conducted in accordance with the “Quality Standards for
                  Inspections” issued by the President’s Council on Integrity and
                  Efficiency and the Executive Council on Integrity and Efficiency.




OEI-06-07-00310   S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   8
Δ          F I N D I N G

  An estimated 4 percent of children enrolled        We determined that 4 percent of
     in separate SCHIPs were eligible for the        children enrolled in separate SCHIPs
                                                     (16 sample cases) were eligible for their
                  Medicaid program in 2006
                                                     States’ Medicaid program (see Table 1).
                     A 4-percent error rate equates to an estimated 105,178 children enrolled
                     in separate SCHIPs nationwide in 2006 being eligible for the Medicaid
                     program. An additional 4.5 percent (18 sample cases) lacked sufficient
                     documentation for us to determine whether the children were Medicaid
                     eligible.



                         Table 1: Medicaid-Eligible Children Enrolled in Separate
                         SCHIPs in 2006

                                                                                                                                   Estimated
                                                                                                                                   Number of
                                                                                    Sample Cases                                    Children
                         Determination Status                                            (n=400)                      Percentage   Nationally
                         Enrollment Errors                                                           16                    4.0%      105,178
                         Unable To Determine                                                         18                    4.5%      118,559
                        Source: OIG review of case file documents for 400 children randomly selected from the 

                        universe of 2,629,462 children enrolled in separate SCHIPs on June 1, 2006, in 36 States. 





                     Enrollment errors
                     Eight of the sixteen cases with enrollment errors had miscalculations of
                     net income. In three of the eight miscalculation cases, caseworkers
                     failed to apply all applicable income disregards to the family’s
                     self-employment income. Among the other five cases, we found few
                     similarities or patterns that caused the miscalculations.

                     Clerical mistakes caused enrollment errors in 3 of the 16 cases. For
                     example, in one of these cases, the caseworker correctly determined that
                     the child should be enrolled in the Medicaid program but improperly
                     entered into the automated system a code to indicate eligibility for the
                     separate SCHIP.

                     The causes for the remaining five cases with enrollment errors were
                     either unknown or not specified by the State. For example, in one case,
                     the State Medicaid agency informed the SCHIP agency that a child who
                     was identified as potentially Medicaid eligible had not cooperated with
                     the Medicaid agency and was, therefore, no longer eligible for either
                     program. State officials acknowledged that the SCHIP agency did not
                     immediately end the child’s enrollment in the separate SCHIP as
                     required, but did not indicate why the agency failed to take the required

OEI-06-07-00310      S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006                         9
    F   I N D I N G

                      action.29 In another of these cases, the State official simply stated
                      “we concur” that the child should have been enrolled in the Medicaid
                      program but did not identify what mistake caused the enrollment error.
                      Unable to determine
                      For the 18 sample cases that lacked sufficient documentation, we found
                      a variety of circumstances that prevented us from determining Medicaid
                      eligibility. In nine cases, some documentation was provided but
                      particular documents or specific information was not provided. In
                      another six cases, no documents were provided, and State officials
                      reported that the case files could not be located for various reasons. In
                      three of these cases, which were from one State, the children had been
                      referred from the Medicaid agency to the separate SCHIP, and
                      information needed for our review was apparently not forwarded from
                      the Medicaid agency. The files in the remaining three cases had been
                      lost, destroyed by a flood, or not forwarded from a previous contractor.
                      Finally, in each of the remaining three cases, the child had been
                      identified by the SCHIP agency as potentially Medicaid eligible, and the
                      case was referred to the Medicaid agency for a full Medicaid eligibility
                      determination. In the meantime, the child remained enrolled in the
                      separate SCHIP, as allowed under the SCHIP State plan for each case.
                      At the time of the review, the elapsed time since the referral ranged
                      from 4 to 8 months among the three cases, each beyond the 45-day
                      timeframe allowed by Federal regulations for making a Medicaid
                      eligibility determination. However, documentation was not sufficient
                      for us to determine in each case whether a Medicaid eligibility
                      determination had been made by the date of our review or to rule out
                      the possibility of extenuating circumstances that would have allowed an
                      exception to the 45-day timeframe.

                      For all 18 cases that lacked sufficient documentation, we could not
                      determine whether the children were eligible for Medicaid and
                      represented additional enrollment errors. These “unable to determine”
                      cases leave open the possibility that the actual number of children
                      enrolled in separate SCHIPs who were eligible for the Medicaid
                      program in 2006 could have been higher than our projection. Hence,
                      taking into account cases that lacked documentation, we project an


                          29 42 CFR § 457.350(g)(2). The SCHIP eligibility rules prohibit children who have been
                      designated as potentially eligible for Medicaid from being enrolled in separate SCHIPs
                      (other than provisional temporary enrollment while a final determination is being made,
                      which no longer applied in this case).



OEI-06-07-00310       S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   10
    F   I N D I N G

                      estimated enrollment error rate that could range from a low of
                      4 percent, if no additional cases involved errors, to a high of 8.5 percent,
                      if all cases lacking documentation involved enrollment errors.




OEI-06-07-00310       S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   11
  Δ         R E C O M M E N D A T I O N


                    We found that an estimated 4 percent of children enrolled in separate
                    SCHIPs were eligible for the Medicaid program in 2006. Additionally,
                    another 4.5 percent of cases lacked sufficient documentation for us to
                    determine whether the children involved were eligible for Medicaid.
                    This lack of documentation leaves open the possibility that the actual
                    number of children enrolled in separate SCHIPs who were eligible for
                    the Medicaid program in 2006 could have been higher than our
                    projection. Enrollment errors can result in the inappropriate use of
                    Federal matching funds and in limited SCHIP resources being expended
                    on Medicaid-eligible children.
                    To address these deficiencies, we recommend that CMS:
                    Take Further Action To Ensure the Appropriate Enrollment of
                    Medicaid-Eligible Children
                    To address miscalculations of incomes and clerical mistakes, CMS could
                    emphasize to States the need for accuracy in enrollment casework and
                    encourage States to perform quality checks to detect such errors. CMS
                    could also use the eligibility measurement component of the PERM,
                    which examines eligibility for both SCHIP and Medicaid enrollment, to
                    identify problems that lead to enrollment errors and assist States in
                    implementing corrective actions. The newly implemented PERM
                    includes an eligibility review for a random sample of beneficiaries in
                    both the SCHIP and Medicaid programs for each State every
                    3 years. Further, because the PERM requires States to develop and
                    implement corrective actions for errors detected, CMS could utilize the
                    PERM to address enrollment errors, such as those identified by this
                    review.


                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    In its written comments on the report, CMS stated that it “supports the
                    spirit of the OIG recommendations” and “will continue to undertake a
                    number of activities to prevent the types of errors identified” in the
                    report. CMS indicated that it will continue to work with States to
                    improve caseworker performance in making eligibility determinations
                    and to ensure Medicaid “screen and enroll” accuracy through automatic
                    eligibility systems.

                    Specifically, CMS indicated that it will include the findings of the report
                    on a monthly call with Associate Regional Administrators and regional


OEI-06-07-00310     S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   12
    R   E C O     M M E N D A T                          I O N

                      offices and ask these entities to reiterate to States the requirement to
                      include the facts essential to the determination of eligibility in the case
                      file documentation. Further, CMS indicated that it will conduct onsite
                      reviews and monitoring of SCHIPs “screen and enroll” processes and
                      identify States that may need a focused review on this topic. Finally,
                      CMS indicated that it will review initial PERM results regarding
                      eligibility determinations and target appropriate States for technical
                      assistance.

                      CMS noted that OIG’s 2003 and 2006 reviews used different methods.
                      For the 2003 review, OIG first determined whether a separate SCHIP
                      enrollee’s family income fell within the separate SCHIP guidelines and,
                      if so, did not attempt to determine whether the child was eligible for the
                      Medicaid program. For this 2006 review, we directly determined
                      whether separate SCHIP enrollees were eligible for the Medicaid
                      program. CMS pointed out that the difference in study design affects
                      any comparisons between the findings of the two studies. OIG agreed
                      and revised the report to avoid comparisons between the studies’
                      findings.

                      CMS requested additional information on some of the 16 cases
                      identified as having enrollment errors. To facilitate CMS’s monitoring
                      and followup with States, OIG will provide CMS with detailed
                      information about each of the 16 cases with enrollment errors. In
                      response to CMS’s other comments, we added information in the
                      appropriate sections of the report to clarify each topic or question.

                      The full text of CMS’s comments is provided in Appendix C.




OEI-06-07-00310       S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   13
      A   P   P E N D           I X               A
   Δ          A P P E N D I X ~ A


Number of Children Enrolled in Separate State Children’s Health Insurance Programs on
June 1, 2006, and Number Reviewed by Office of Inspector General

                                                                                                                                   Children Selected for
State                                                         Number of Children Enrolled                                                       Review

Alabama                                                                                                       66,295                                  7
Arizona                                                                                                       58,639                                  5
California                                                                                                   764,269                                122
Colorado                                                                                                      44,922                                  8
Connecticut                                                                                                   14,215                                  2
Delaware                                                                                                       5,516                                  2
Florida                                                                                                      220,243                                 31
Georgia                                                                                                       65,413                                  9
Idaho                                                                                                          2,429                                  0
Illinois                                                                                                      45,018                                 12
Indiana                                                                                                       17,586                                  2
Iowa                                                                                                          20,659                                  2
Kansas                                                                                                        37,672                                  7
Kentucky                                                                                                      15,204                                  3
Maine                                                                                                          4,416                                  0
Maryland                                                                                                      11,546                                  3
Massachusetts                                                                                                 21,266                                  1
Michigan                                                                                                      34,190                                  7
Mississippi                                                                                                   60,298                                 11
Montana                                                                                                       13,153                                  3
Nevada                                                                                                        27,931                                  4
New Hampshire                                                                                                  7,222                                  2
New Jersey                                                                                                    79,470                                 12
New York                                                                                                     283,803                                 52
North Carolina                                                                                               115,207                                 15
North Dakota                                                                                                   5,339                                  0
Oregon                                                                                                        29,384                                  6
Pennsylvania                                                                                                 137,090                                 18
South Dakota                                                                                                   2,410                                  0
Texas                                                                                                        292,636                                 42
Utah                                                                                                          35,646                                  1
Virginia                                                                                                      46,112                                  5
Washington                                                                                                    10,862                                  3
West Virginia                                                                                                 25,032                                  2
Wyoming                                                                                                        5,262                                  1
Vermont                                                                                                        3,107                                  0
  Total                                                                                                 2,629,462                                   400
Source: Data collected by Office of Inspector General in April 2007 from 36 States with separate State Children’s Health
Insurance Programs.




 OEI-06-07-00310                  S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006                           14
  Δ         A P P E N D I X ~ B


  Estimates, Projections, and Confidence Intervals for Medicaid-Eligible
  Children Enrolled in Separate State Children’s Health Insurance Programs
  In 2006


    Estimated Percentage of Medicaid-Eligible Children Enrolled in Separate SCHIPs

    Case File Review Findings                                                  Estimate                        95-Percent Confidence Interval*
                                                                                                                     Lower Limit        Upper Limit

    Enrollment Errors                                                                  4.0%                                      2.3%        6.4%

    Unable To Determine                                                                4.5%                                      2.7%        7.0%
    Cases With Enrollments Errors
    and Unable To Determine                                                            8.5%                                      6.0%       11.7%
    Source: Office of Inspector General review of case file documents for 400 children randomly selected from the
    universe of 2,629,462 children enrolled in separate State Children’s Health Insurance Programs on June 1, 2006, in
    36 States.

    *Confidence intervals calculated with an exact method based on the binomial distribution.




    Projected Number of Medicaid-Eligible Children Enrolled in Separate SCHIPs

    Case File Review Findings                                                  Estimate                     95-Percent Confidence Interval*
                                                                                                                      Lower Limit       Upper Limit

    Enrollment Errors                                                             105,178                                    60,564        168,672

    Unable To Determine                                                           118,326                                    70,690        184,559
    Cases With Enrollments Errors and
    Unable To Determine                                                           223,504                                   156,669        306,990
   Source: Office of Inspector General review of case file documents for 400 children randomly selected from the
   universe of 2,629,462 children enrolled in separate State Children’s Health Insurance Programs on June 1, 2006, in
   36 States.

   *Confidence intervals calculated with an exact method based on the binomial distribution.




OEI-06-07-00310                 S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006                        15
 Δ          A P P E N D I X ~ C
Agency Comments




 OEI-06-07-00310     S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   16
    A   P   P E N D   I X             ~            C            





OEI-06-07-00310       S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   17

    A P P E N D   I X             ~            C            





OEI-06-07-00310   S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   18

    A   P   P E N D   I X             ~            C            





OEI-06-07-00310       S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   19
    A   P   P E N D   I X             ~            C            





OEI-06-07-00310       S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   20
  Δ         A C K N O W L E D G M E N T S


                    This report was prepared under the direction of Kevin K. Golladay,
                    Regional Inspector General for Evaluation and Inspections, and
                    A. Blaine Collins, Deputy Regional Inspector General for Evaluation
                    and Inspections, in the Dallas regional office.

                    Leah Bostick served as the team leader for this study, and Deborah
                    McGurk served as the project leader. Other principal Office of
                    Evaluation and Inspections staff from the Dallas regional office who
                    contributed to this report include Dana McClellen and Margaret
                    McKnight; central office staff who contributed to this report include
                    Alan Levine and Barbara Tedesco.




OEI-06-07-00310     S E PA R AT E S C H I P E N R O L L E E S ’ E L I G I B I L I T Y   FOR   MEDICAID   IN   2006   21
